V -XIdN3ddV
H3A0D

sihi

aaaNn

%

Court

of

Appeals

Second District of Texas
CHIEF JUSTICE
BONNIE SUDDERTH

TIM CURRY CRIMINAL JUSTICE CENTER
401 W. BELKNAP, SUITE 9000
FORT WORTH, TEXAS 76196-0211

JUSTICES
LEE GABRIEL
ELIZABETH KERR
J, WADEBIRDWELL
DABNEY BASSEL
DANA WOMACK
MIKE WALLACH

CLERK
DEBRA SPISAK
CHIEF STAFF ATTORNEY
LISA M, WEST

TEL: (817) 884-1900
FAX: (817) 884-1932

GENERAL COUNSEL
CLARISSA HODGES

wnvw.txcourts.gov/2ndcoa

December 8, 2020
Russell J ay Reger
TDCJ #00747783
French Robertson Unit
12071 FM 3522
Abilene, TX 79601-8749
RE:

Court of Appeals Number:
Trial Court Case Number:

Style:

Russell Jay Reger
v.
The State of Texas

02-20-00161-CR
0579930D

The court has received a copy of the notice of appeal in this case. See Tex. R.
App. P. 25.2(e).
The court is concerned that it lacks jurisdiction over this appeal because the
trial court has not entered any appealable orders. In the criminal context, the court’s
jurisdiction is generally limited to cases in which the trial court has signed a judgment
of conviction. See McKown v. State, 915 S.W.2d 160, 161 (Tex. App.—Fort Worth
1996, no pet.). This court does not have jurisdiction over matters related to
postconviction relief from an otherwise final felony conviction. See Ater v. Eighth Court
ofAppeals, 802 S.W.2d 241, 243 (Tex. Ciim. App. 1991) (orig. proceeding); see also Tex.
Code Crim. Proc. Ann. art. 11.07; Bd. of Pardons & Paroles ex re l Keene v. Court ofAppeals
for the Eighth Dist., 910 S.W.2d 481, 483 (Tex. Crim. App. 1995) (ong. proceeding).
Unless appellant or any party desiring to continue the appeal files with the
court on or before Friday, December 18, 2020, a response showing grounds for
continuing the appeal, this appeal may be dismissed for want of jurisdiction. See Tex.

02-20-00161-CR
December 8, 2020
Page 2

R. App.P. 43.2(f); 44.3.
Respectfully yours,
DEBRA SPISAK, CLERK

By: Karen Brown, Deputy Clerk
cc:

Joseph W. Spence
Assistant District Attorney
Tim Curry Criminal Justice Center
-401 W. Belknap St.
Fort Worth, TX 76196
Court Reporter, Criminal District Court No. 3
Tim Curry Criminal Justice Center
401 W. Belknap St.
Fort Worth, TX 76196-0215
Criminal District Clerk, Tarrant County
Tim Curry Criminal Justice Center
401 W. Belknap, 3rd Floor
Fort Worth, TX 76196-0402
Hon. Robb Catalano
Judge, Criminal District Court No. 3
Tim Curry Criminal Justice Center
401 W. Belknap
Fort Worth, TX 76196

9

a -xiaNaddv
H3A0D siHi naaNn

*
»

FILE COPY

Court

of

Appeals

Second District
CHIEF JUSTICE
BONNIE SUDDERTH

of

Texas

TIM CURRY CRIMINAL JUSTICE CENTER
401 W. BELKNAP, SUITE 9000
FORT WORTH, TEXAS 76I96-02II

JUSTICES
ELIZABETH KERR
J. WADE BIRDWELL
DABNEY BASSEL
DANA WOMACK
MIKE WALLACH
BRIAN WALKER

TEL: (817) 884-1900
FAX: (817) 884-1932

CLERK
DEBRA SPISAK
CHIEF STAFF ATTORNEY
LISA M. WEST
GENERAL COUNSEL
CLARISSA HODGES

www.txcourts.gov/2ndcoa

February 11, 2021
Russell Jay Reger
TDCJ #00747783
French Robertson Unit
12071 FM 3522
Abilene, TX 79601-8749
Hon. David L. Evans
Regional Presiding Judge
Tom Vandergriff Civil Courts Building
100 N. Calhoun, 4th Floor
Fort Worth, TX 76196
* DELIVERED VIA E-MAIL *

Joseph W. Spence
Assistant Criminal District Attorney
Tim Curry Criminal Justice Center
401 W. Belknap St.
Fort Worth, TX 76196-0201
* DELIVERED VIA E-MAIL *
Criminal District Clerk, Tarrant County
Tim Curry Criminal Justice Center
401 W. Belknap, 3rd Floor
Fort Worth, TX 76196-0402
* DELIVERED VIA E-MAIL *

Hon. Robb Catalano
Judge, Criminal District Court No. 3
Tim Curry Criminal Justice Center
401 W. Belknap
Fort Worth, TX 76196
* DELIVERED VIA E-MAIL *
RE:

Court of Appeals Number:
Trial Court Case Number:

Style:

Russell Jay Reger
v.
The State of Texas

02-20-00161-CR
0579930D

Today the Second Court of Appeals issued an opinion and judgment in the
above-referenced cause. Copies of the opinion and judgment are attached and can
also be viewed on our Court’s webpage at: http://www.txcourts.gov/2ndcoa.

4

FILE COPY
•<
02-20-00161-CR
Februaty 11,2021
Page 2

Respectfully yours,
DEBRA SPISAK, CLERK

E
(3

In the
Court of Appeals
Second Appellate District of Texas
at Fort Worth
No. 02-20-00161-CR

Russell Jay Reger, Appellant
v.
The State of Texas
On Appeal from Criminal District Court No. 3
Tarrant County, Texas
Trial Court No. 0579930D

Before Kerr, Birdwell, and Bassel, JJ.
Memorandum Opinion by Justice Kerr

MEMORANDUM OPINION
In 1996, a jury convicted Russell Jay Reger of murder, and the trial court
sentenced him to life in prison. We affirmed Reger’s conviction on direct appeal See
Reger v. State, No. 02-96-00217-CR (Tex. App.—Fort Worth July 31, 1997, pet refd)
(not designated for publication).
In 2005, Reger moved for postconviction forensic DNA testing. See Reger v.
State, 222 S.W.3d 510, 512 (Tex. App.—Fort Worth 2007, pet refd). See generally Tex.
Code Crim. Proc. Ann. arts. 64.01—.05. The trial court denied Reger’s motion, and we
affirmed that denial on appeal.1 See Reger, 222 S.W.3d at 515.
Now, Reger, proceeding pro se, appears to assert that we lacked jurisdiction
over those appeals and has filed a “[Second] Amended Notice of Appeal of Lacking
Final Judgment,” attempting to appeal from the “overruling by operation of law” of
“Defendant Reger’s Sworn and Verified Out-of-Time Motion for New Trial with
Omnibus Motions in Arrest of Judgment with Speedy Trial Violation; Nunc Pro
Tunc, and Bill of Exception to Support in Plea of Jurisdiction of Void Interlocutory
Appellate Cause Nos. 02-96-00217-CR and 02-06-00104-CR”
In the criminal context, our jurisdiction is generally limited to cases in which
the trial court has signed a judgment of conviction. McKown v. State, 915 S.W.2d 160,
161 (Tex. App.—Fort Worth 1996, no pet) (per curiam). We do not have jurisdiction

We docketed this appeal under cause number 02-06-00104-CR

2

over matters related to postconviction relief2 from an otherwise final felony

conviction. See Ater v. Eighth Court ofAppeals, 802 S.W.2d 241, 243 (Tex. Crim. App.
1991) (oiig. proceeding); see also Tex. Code Crim. Proc. Ann. art 11.07; Bd. of Pardons
& Paroles ex rel Keene v. Court ofAppeals for the Eighth Dist., 910 S.W.2d 481, 483 (Tex.
Crim. App. 1995) (orig. proceeding). We thus notified Reger of our concern that we
lack jurisdiction over this appeal. We warned him that we could dismiss this appeal for
want of jurisdiction unless he or any party wanting to continue the appeal filed a
response showing grounds for continuing the appeal. See Tex. R. App. P. 43.2(f), 44.3.
We have reviewed “Appellant Reger’s Response Showing Grounds for
Continuing Appeal,” as well as “Appellant Reger’s Objections to the Conspired
Denials of Adequate, Meaningful, and Effective Access to the Courts.” Because
neither shows grounds for continuing this appeal, we dismiss this appeal for want of
jurisdiction. See Tex. R, App. P. 43.2(f)
/s/ Eli2abeth Kerr
Elizabeth Kerr
Justice
Do Not Publish
Tex. R. App. P. 47.2(b)
Delivered: February 11, 2021

2Chapter 64 of the Texas Code of Criminal Procedure governs postconviction
DNA testing and is “a procedural vehicle for obtaining evidence” to be used in a later
habeas proceeding. In re Garcia, 363 S.W.3d 819, 822 (Tex. App.—Austin 2012, no
pet.).

3

SI

In the
Court of Appeals
Second Appellate District of Texas
at Fort Worth
No. 02-20-00161-CR
Russell Jay Reger, Appellant

§

On Appeal from Criminal District
Court No. 3

§
of Tarrant County (0579930D)
V.

§
February 11,2021

§
Memorandum Opinion by Justice Kerr
The State of Texas

§
(nfp)
JUDGMENT

This court has considered the record on appeal in this case and holds that the
appeal should be dismissed. It is ordered that the appeal is dismissed for want of
jurisdiction.

SECOND DISTRICT COURT OF APPEALS
By /s / Elizabeth Kerr
Justice Elizabeth Kerr

D -XIONaddV
H3AOD SIHI HaaNQ

*

r*

[t
&

In the
Court of Appeals
Second Appellate District of Texas
at Fort Worth
No. 02-20-00161-CR

Russell Jay Reger, Appellant
v.
The State of Texas
On Appeal from Criminal District Court No. 3
Tarrant County, Texas
Trial Court No. 0579930D

ORDER

We have considered “Appellant’s Motion for Rehearing/Reconsideration;
and/or Rehearing En Banc of Per Curiam Order Dated February 11, 2021.”
It is the opinion of the court that the motion for rehearing en banc should be
and is hereby denied and that the opinion and judgment of February 11, 2021, stand
unchanged.

S'%

■

We direct the clerk of this court to send a notice of this order to the pro se
appellant and the attorneys of record.
Signed March 11, 2021.

/s/ Elizabeth Kerr
Elizabeth Kerr
Justice
En Banc

2

OFFICIAL NOTICE FROM COURT OF CRIMINAL APPEALS OF TEXAS FILE COPY
P.O. BOX 12308, CAPITOL STATION, AUSTIN, TEXAS 78711

23/2021

COA No. 02-20-00161 -CR

EGER!, RUSSELL JAY
PD-0249-21
f)
n this) day, the Appellant's Pro Se. petition for1 discretionary review has been
fused
Deana Williamson, Clerk
RUSSELL JAY REGER
ROBERTSON UNIT - TDC #747783
12071 FM 3522
ABILENE, TX 79601

a -xianaddv
- H3A0D sihi aaaNn

%

C‘

3 -XIQNSddV
H3A00 SIH1 H3QNH

i*

%

4

«

STATE

OP

TEXAS

$

§
COUNTY OP

JONES

KNOW ALL PERSONS BY THESE PRESENTS

$

SHORN AFFIDAVIT OP RUSSELL JAY REGER (TDCJ-dD #747783) (SID #05422444)
IN SUPPORT OP PETITION POR A WRIT OP CERTIORARI
That I, Russell Jay Reger, “Petitioner", do hereby state under penalty
of perjury that the following facts detailed in this AFFIDAVIT are, to the best
of my knowledge and belief- true and correct- based upon the best evidence made
available to me -or- in my possession at time of executing this AFFIDAVIT. If
I knowingly or intentionally lie- may I then burn in the hottest flames inside
eternal hell. I am over 50 years of age, and am competent to make this AFFIDAVIT
and duly swear that:
I have not yet been duly tried, convicted or
Cujnder Texas Law
sentenced for any crime. I have remained falsely imprisoned in a
hot Texas Prison for more than a quarter-of-a-century "Post-Indicted/
Pretrial Status." I have been subjected to involuntary servitude
and tortured, forced to work against medical restrictions resulting
in bodily injuries documented in medical and administrative records.
Persons acting under the Color of Texas Law know these facts- they
do not contest them- and stand firm that the judiciary will endorse
them by ignoring my cries for justice and mercy. My Speedy Trial
rights have been spat upon, and newly discovered material- excul­
patory, impeaching, and mitigating evidence has been procedurally
ignored. Nobody, no court or government officer cares to give me
a simple merits hearing because they already know what would then
be exposed
the truth of what I have sworn to above. If you think
1 am lying, PLEASE, charge me with Perjury. Let the world then see
who had been telling the truth- for decades!
FURTHER I SAYETH NOUGHT1
SHORN TO BENEATH THE WINGS OP ALMIGHTY GOO CXI this J^day in

u Jr

TRUE AND CORRECT - SO HELP ME GODI
.S.C. § l£21 & 28 ILSXL^-dr
[Tfex.Civ.PracA Ran.G0de § 132.0Q1-.003 et sag / Title
ty as its ori^naU
(A signed/dated copy of this AFFIDAVIT shall hare t same
\

Respegtfully/\Subifiitted/
EXKUUD INXR HIE 11CF THE
FECERAL FLLfS CF CIVIL PROCECLFE

»

/a/

V

Petitioner, Pro Se.
7
Russell Jay Reger #74 ^783
French M. Robertson Unit.
12071 FM 3522
Abilene, Texas 79601-8749
(325)548-9035
www.free-rustv-reqer.net / .com

, 2DZ\

